                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-259




       Community Based Outpatient 

             Clinic Review 

                   at 

          Jack C. Montgomery 

           VA Medical Center 

             Muskogee, OK 





July 24, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                           CBOC Review at Jack C. Montgomery VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                          CBOC Review at Jack C. Montgomery VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 16 Director Comments .............................................................................                     11

  B. Jack C. Montgomery VAMC Director Comments...............................................                                    12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution .............................................................................................           16





VA OIG Office of Healthcare Inspections
                                                      CBOC Review at Jack C. Montgomery VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Vinita CBOC during the week of
May 20, 2013.

The review covered the following topic areas:

    WH

    Vaccinations

    C&P

    EOC

    Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and emergency management onsite inspections were only conducted at the randomly
selected CBOC (see Table 1).

     VISN     Facility                         CBOC Name         Location
      16      Jack C. Montgomery VAMC          Vinita            Vinita, OK
                                     Table 1. Site Inspected

Review Results: We made recommendations in two review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC manager, should take appropriate actions to:

	   Establish a process to ensure that the ordering provider or surrogate is notified of
     abnormal cervical cancer screening results within the required timeframe and that
     notification is document in the EHR.

	   Ensure that patients with normal cervical cancer screening results are notified
     within the required timeframe and that notification is documented in the EHR.

	   Ensure that clinicians document all required tetanus vaccine administration
     elements and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                                   i
                                               CBOC Review at Jack C. Montgomery VAMC


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A-B,
pages 11–14, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                 JOHN D. DAIGH, JR., M.D.
                                                Assistant Inspector General for
                                                     Healthcare Inspections




VA OIG Office of Healthcare Inspections                                            ii
                                                               CBOC Review at Jack C. Montgomery VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to the Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed an onsite inspection
at one randomly selected site. Additionally, we interviewed managers and employees.
The review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                   CBOC Review at Jack C. Montgomery VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC. This CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                2
                                                                                                             CBOC Review at Jack C. Montgomery VAMC



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                      Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                CBOC Size9
                                                                                                      FY 20127            FY 20128
                                                    Hartshorne                     Rural               1,973               8,664            Mid-Size
                                                 (Hartshorne, OK)
                                                       Tulsa                       Urban                20,711            189,614          Very Large
    16   Jack C. Montgomery VAMC                   (Tulsa, OK)
                                                       Vinita                      Rural                2,393              15,954           Mid-Size
                                                   (Vinita, OK)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                CBOC Review at Jack C. Montgomery VAMC



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
              X                The ordering VHA provider or surrogate was notified of results
                               within the required timeframe.
              X                Patients were notified of results within the required timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 19 patients who received                             a    cervical     cancer       screening       at
the Jack C. Montgomery VAMC’s CBOCs.

Provider Notification of Abnormal Cervical Cancer Screening Results. VHA requires
that abnormal cervical cancer screening results must be reported to the provider or
surrogate within 5 business days of the report being issued and that the notification is
documented in the EHR. We reviewed the EHRs of three patients and did not find
documentation in two of the records that the interpreting physician notified the ordering
provider or surrogate of the abnormal cervical cancer screening results within
5 business days.



10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                CBOC Review at Jack C. Montgomery VAMC


Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 16 EHRs of patients who had normal cervical cancer
screening results and determined that 3 patients were not notified within the required
14 days from the date the pathology report became available.

Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of abnormal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of the results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although
vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccine should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element
marked as NC needed improvement. Details regarding the finding follow the table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.



13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                 CBOC Review at Jack C. Montgomery VAMC


          NC                              Areas Reviewed (continued)
                       Managers developed a prioritization plan for the potential occurrence of
                       vaccine shortages.
                                             Table 4. Vaccinations

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.14 We reviewed the EHRs of 10 patients who received a
tetanus vaccine administration at the parent facility or its associated CBOCs and did not
find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs.

Recommendation

3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.




14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                              6
                                                            CBOC Review at Jack C. Montgomery VAMC



                                Onsite Reviews 

                         Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOC (see Table 5).

                                                                       Vinita

     VISN                                                                16

     Parent Facility                                      Jack C. Montgomery VAMC
                                                        Licensed Clinical Social Worker
                                                               Nurse Practitioner
     Types of Providers                                     Primary Care Physician
                                                                  Psychiatrist
                                                                  Pharmacist
     Number of MH Uniques,                                              670
     FY 2012
     Number of MH Visits,                                              3,707
     FY 2012
     MH Services Onsite                                                 Yes
     Specialty Care Services Onsite                                     WH
     Ancillary Services Provided                             Electrocardiogram
     Onsite                                                      Laboratory
                                                                     MH
                                                                  MOVE15
     Tele-Health Services                                      Rehabilitation
                                                              Retinal Imaging
                                                                  Surgery
                                                      Care Coordination Home Teleheath
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                         7
                                                         CBOC Review at Jack C. Montgomery VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                         Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                           FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                 Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P


16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      8
                                                     CBOC Review at Jack C. Montgomery VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                      Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                     Information technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC




VA OIG Office of Healthcare Inspections                                                  9
                                                     CBOC Review at Jack C. Montgomery VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  10
                                                   CBOC Review at Jack C. Montgomery VAMC
                                                                                Appendix A
                           VISN 16 Director Comments


               Department of
               Veterans Affairs 	                           Memorandum


       Date: 	         July 2, 2013

       From: 	         Director, VISN 16 (10N16)

       Subject: 	      CBOC Review at Jack C. Montgomery VAMC

       To: 	           Director, 54SD Healthcare Inspections Division (54SD)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
       and concurs with the draft report submitted by the Jack C. Montgomery
       VA Medical Center, Muskogee, OK.

       2. If you have questions regarding the information submitted, please
       contact Reba T. Moore, VISN 16 Accreditation Specialist at 601-208-7022.




VA OIG Office of Healthcare Inspections                                                11
                                                   CBOC Review at Jack C. Montgomery VAMC
                                                                                Appendix B
           Jack C. Montgomery VAMC Director Comments



               Department of
               Veterans Affairs                             Memorandum


       Date:           July 1, 2013

       From:           Director, Jack C. Montgomery VAMC (623/00)

       Subject:        CBOC Review at Jack C. Montgomery VAMC

       To:             Director, VISN 16 (10N16)

       1. We have reviewed and concur with the preliminary report of the Vinita,
       OK CBOC review. We have developed an action plan and have begun
       implementing our plan.

       2. If there are any questions or concerns please contact Martha Hardesty
       RN, Performance Improvement Specialist at 918-577-3473.




VA OIG Office of Healthcare Inspections                                                12
                                                   CBOC Review at Jack C. Montgomery VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of abnormal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: January 31, 2014

A Standard Operating Procedure (SOP) was created from VHA Handbook 1330.01 to
clarify results reporting timeframes and documentation requirements to staff. This SOP
was shared with all Primary Care staff at the parent facility and all CBOC’s on
June 27, 2013. The Women’s Veterans Program Manager (WVPM) will monitor the
reporting timeframes and documented dates the ordering provider or surrogate is
notified of abnormal cervical cancer screening results for 6 months. WVPM will keep
the Chief of Staff, Acting Chief of Primary Care, and Chief of Pathology and Laboratory
Medicine informed of the monitoring results.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of the results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: January 31, 2014

An SOP was created from VHA Handbook 1330.01 to clarify results reporting
timeframes and documentation requirements to staff. This SOP was shared with all
Primary Care staff at the parent facility and all CBOC’s on June 27, 2013. The WVPM
will monitor the reporting timeframes and documented dates that patients with normal
cervical cancer screening are notified of their results for 6 months. WVPM will keep the
Chief of Staff, Acting Chief of Primary Care, and Chief of Pathology and Laboratory
Medicine informed of the monitoring results.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: June 27, 2013



VA OIG Office of Healthcare Inspections                                                13
                                                CBOC Review at Jack C. Montgomery VAMC


Clinical Applications Coordinators have developed and implemented a template to
include all elements required for proper documentation of vaccinations. This template
was incorporated into vaccination documentation after the time period of Electronic
Health Record review performed by OIG.




VA OIG Office of Healthcare Inspections                                            14
                                                    CBOC Review at Jack C. Montgomery VAMC
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Katrina Young, RN, MSHL, Team Leader
Contributors            Elizabeth Burns, MSSW
                        Jennifer Reed, RN, MSHI
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Derrick Hudson, Program Support Assistant
                        Glen L. Pickens, RN, MHSM
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  15
                                                CBOC Review at Jack C. Montgomery VAMC
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 16 (10N16)
Director, Jack C. Montgomery VAMC (623/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tom Coburn, James M. Inhofe
U.S. House of Representatives: Jim Bridenstine, Markwayne Mullin


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              16
